                                                             United States Department of State
                                                             and the Broadcasting Board of Governors

                                                             Office of Inspector General


                                                                     AUG 11 2011



MEMORANDUM

TO:            A/LM/AQM - Cathy J. Read

FROM:          OIG - Harold W.   Geis~J;j
SUBJECT:      Report on Audit ofDepartment ofState Data Center Program Funded by the
              American Recovery and Reinvestment Act (AUD/CG-11 -34)

The subject report is attached for your review and action. As the action office for the report's one
recommendation, please provide your response to the report and information on actions taken or
planned for the recommendation within 30 days of the date of this memorandum. Actions taken or
planned are subject to follow-up and reporting in accordance with the attached compliance response
information.

The Office of Inspector General (OIG) incorporated your comments as appropriate within the body
of the report and included them in their entirety as Appendix C.

OIG appreciates the cooperation and assistance provided by your staff during this audit. If you have
any questions, please contact Evelyn R. Klemstine, Assistant Inspector General for Audits, at (202)
663 -0372 or Richard Astor, Division Director, at (703) 284-2601 or by email at astorr(@'state.gov.

Attachment: As stated.

cc: INRlEXlB&F ­ (b) (6)
    M /PRI - _ _ __
             (b) (6)
      IRM/BMP/SPO/SPD ­ (b) (6)
                                        UNCLASSIFIED




                    United States Department of State 

                 and the Broadcasting Board of Governors

                        Office of Inspector General



                                      Office of Audits 





                              Audit of the 

                          Department of State 

                          Data Center Program 

                             Funded by the 

                 American Recovery and Reinvestment Act 



                                        AUD/CG-11-34 

                                         August 2011





                                         Important Notice

This report is intended solely for the official use of the Department of State or the Broadcasting
Board of Governors, or any agency or organization receiving a copy directly from the Office of
Inspector General. No secondary distribution may be made, in whole or in part, outside the
Department of State or the Broadcasting Board of Governors, by them or by other agencies or
organizations, without prior authorization by the Inspector General. Public availability of the
document will be determined by the Inspector General under the U.S. Code, 5 U.S.C. § 552.
Improper disclosure of this report may result in criminal, civil, or administrative penalties.
                                                   




                                        UNCLASSIFIED 

                                                               United States Department of State
                                                               and the Broadcasting Board of Governors

                                                               Office of T"spector General

                                            PREFACE

        This report is being transmitted pursuant to the Inspector General Act of 1978, as
amended, and Section 209 of the Foreign Service Act of 1980, as amended. It is one of a series
of audit, inspection, investigative, and special reports prepared as part of the Office ofInspector
General's (OJ G) responsibility to promote effective management, accountability, and positive
change in the Department of State and the Broadcasting Board of Governors.

        This report addresses the Department of State' s (Department) compliance with Fedcral,
Department, and American Recovery and Reinvestment Act (Recovery Act) acquisition
management practices as related to the Department's Data Center Program. The report is based
on interviews with Department employees and offIcials, direct observation, and a review of
applicable documents.

         OIG contracted with the independent public accountant Clarke Leiper, PLLC, to perform
thi s audit. The contract required that Clarke Leiper perform its audit in accordance with
guidance contained in the Government Auditing Standards, issued by the Comptroller General of
the United States. Clarke Leiper's report is included.

         Clarke Leiper identified three areas in which improvements could be madc: transparency
of award notifications posted on the Web site FedBizOpps, compliance with certain requirements
establi shed by the Office of Management and Budgct, and accuracy of reporting by award
recipients.

       OlG evaluated the nature, extent, and timing of Clarke Leiper' s work; monitored progress
throughout the audit; reviewed Clarke Leiper' s supporting documentation; evaluated key
judgments; and performed other procedures as appropriate. OIG concurs with Clarke Leiper' s
findings, and the recommendation contained in the report was developed on the basis of the best
knowledge available and was discussed in draft form with those individuals responsible for
implementation. OIG ' s analysis of management's response to the recommendation has been
incorporated into the report. OIG trusts that this report will result in more effective, efficient,
andlor economical operations.

        I express my appreciation to all of the individuals who contributed to the preparation of
this report.


                                  /j
                                      Harold W. Geisel
                                      Deputy Inspector General
                                                UNCLASSIFIED





                                               CLARKE LEIPER, PLLC
                                            CERTIFIED PUBLIC ACCOUNTANTS
                                                  6265 FRANCONIA ROAD
                                                ALEXANDRIA, VA 22310-2510
                                                       703-922-7622
                                                    FAX: 703-922-8256
DORA M. CLARKE
LESLIE A. LEIPER



          Audit of Department of State Data Center Program Funded by the American Recovery and
          Reinvestment Act



          Office of Inspector General
          U.S. Department of State 

          Washington, D.C. 


          Clarke Leiper, PLLC (referred to as “we” in this letter), has performed an audit of the
          Department of State’s (Department’s) Data Center Program funded by the American Recovery
          and Reinvestment Act (Recovery Act). We evaluated the program’s planned activities, contracts
          awarded with Recovery Act funds, and compliance with reporting requirements established by
          the Recovery Act. This performance audit, performed under Contract No. SAQMPD04D0033,
          was designed to meet the objective identified in the report section “Objective” and further
          detailed in Appendix A, “Scope and Methodology,” of the report.

          We conducted this performance audit from April through October 2010 in accordance with
          Government Auditing Standards, issued by the Comptroller General of the United States. We
          communicated the results of our performance audit and the related findings and recommendation
          to the Department of State Office of Inspector General.

          We appreciate the cooperation provided by personnel in Department offices during the audit.




          Clarke Leiper, PLLC
          July 2011




                                                UNCLASSIFIED

                                 UNCLASSIFIED



Acronyms


Department     Department of State 

ESOC           Enterprise Server Operations Center (Data Center) 

FAR            Federal Acquisition Regulation

FBO            Federal Business Opportunities (FedBizOpps) 

FPDS           Federal Procurement Data System (FPDS.gov) 

GSA            General Services Administration 

GAGAS          generally accepted government auditing standards 

IRM            Bureau of Information Resource Management 

MOU            memorandum of understanding 

OIG            Office of Inspector General 

OMB            Office of Management and Budget 

Recovery Act   American Recovery and Reinvestment Act of 2009 





                                 UNCLASSIFIED

                                                            UNCLASSIFIED


                                                     TABLE OF CONTENTS



Executive Summary .............................................................................................................1 


Background ..........................................................................................................................2 


Objective ..............................................................................................................................3 


Results of Audit ...................................................................................................................3 


     A. Program Objective Is Generally Being Achieved....................................................4 

     B. Program Is Generally in Compliance With Recovery Act Requirements ..............6 


Appendices 

   A. Scope and Methodology...........................................................................................9 

   B. Capital Investment Fund ........................................................................................12 

   C. Bureau of Administration Response ......................................................................13 





                                                            UNCLASSIFIED

                                            UNCLASSIFIED


                                        Executive Summary

        The American Recovery and Reinvestment Act of 2009 (Recovery Act)1 provided
approximately $120 million to fund the Data Center program to produce a more secure
information technology (IT) infrastructure in order to protect the Department of State’s
(Department) physical and logical information and assets. By implementing a state-of-the-art
secure IT infrastructure, the Department will enhance its ability to execute its diplomatic
mission, serve the U.S. public, and strengthen its infrastructure from cyber security threats.

       The objective of our audit was to determine whether the Department adequately
implemented Data Center program plans, achieved stated program outcomes, and complied with
the reporting requirements of the Recovery Act.

        We found that program managers in the Bureau of Information Resource Management
(IRM) had successfully planned for and integrated the Data Center program into the
Department’s Data Center Consolidation plan. Because the objectives of the Data Center
program are already part of the Data Center Consolidation plan, much of the initial planning has
already been completed and approved. The overall plan for a new Data Center has existed for
several years, and the Recovery Act provided the funding necessary to execute those plans. The
plan for the Data Center program includes appropriate focus on accountability and other
requirements of Recovery Act funds. In addition, we determined that there were no deviations
or major delays in executing the plan and that major milestones were met.

        The Department has taken appropriate actions in establishing guidelines intended to
ensure compliance with Office of Management and Budget (OMB) requirements for the
Recovery Act. We found that reimbursements to the General Services Administration (GSA)
for awarding and managing construction of the Data Center in the Western United States,
pursuant to a Department memorandum of understanding (MOU), were accurate and complete.
In addition, contracts were awarded in accordance with the Federal Acquisition Regulation
(FAR) and OMB memoranda.2 While procedures related to data transparency and reporting
requirements were established and implemented, a few minor instances of noncompliance were
identified for the Data Center program. Specifically, Recovery Act transparency requirements
identifying the purpose, nature, and corresponding program for contract awards were not met
prior to posting or publicizing information. Also, some Recovery Act award information was not
reported accurately.

       We recommended that the Bureau of Administration, Office of Logistics Management,
Office of Acquisitions Management (A/LM/AQM), enhance its contract oversight efforts to
ensure more complete and accurate reporting of award information.

      In its response to the draft report (see Appendix C), AQM concurred with the
recommendation. Based on the response, OIG considers the recommendation resolved, and it

1
 Pub. L. No. 111-5, 123 stat. 115 (2009). 

2
 Memoranda M-09-10, Initial Implementing Guidance for the American Recovery and Reinvestment Act of 2009, 

and M-09-15, Updated Implementing Guidance for the American Recovery and Reinvestment Act of 2009.


                                                     1

                                            UNCLASSIFIED
                                        UNCLASSIFIED


will be closed pending review and acceptance of documentation for the actions OIG specified.
The response and OIG’s analysis are presented after the recommendation.

                                          Background

        The Recovery Act was signed into law as a direct response to the recent economic crisis
in an effort to jumpstart the economy and invest in long-term growth by creating or saving jobs
and putting a downpayment on addressing long-neglected challenges. The Department was
provided $602 million in Recovery Act funds to create and save jobs, repair and modernize
domestic infrastructure crucial to the safety of American citizens, enhance energy independence,
and expand consular services offered to American taxpayers. The Recovery Act also established
an unprecedented level of accountability and transparency in Government spending. Agencies
and contractors are subject to new reporting requirements set forth by OMB that will allow the
general public to view Recovery Act spending in a direct and timely manner. The Department’s
projects and a breakdown of proposed spending of Recovery Act funds are summarized in
Table 1.

Table 1. Department Projects and Proposed Spending of Recovery Act Funds
Department of State – Account / Project                                       Funds (in 000s)
Diplomatic & Consular Programs                                                           $90,000
    - Hard Skills Training Center                                                         70,000
    - Consular Affairs Passport Facilities                                                15,000
    - National Foreign Affairs Training Center                                             5,000
Capital Investment Fund                                                                $290,000
    - Data Center                                                                      $120,000
    - Information Technology (IT) Platform                                                33,500
         Diplomatic Facility Telephone System Replacement                                 10,000
         Replacement of Aging Desktop Computers                                           13,000
         Mobile Computing                                                                 10,500
    - Cyber Security                                                                      98,500
         Tools To Guard Against and Track Cyber Attacks                                   64,205
         Strengthen Computer H/W Security Testing & Forensic Investigations                4,000
         Safeguarding Citizens – Computer Security Systems                                25,366
         Expanded Cyber Education                                                          4,929
 Transfer to U.S. Agency for International Development                                    38,000
Office of Inspector General                                                               $2,000
International Boundary and Water Commission Construction                               $220,000
                                                                   TOTAL                $602,000
Source: Department of State.

        Of the total $602 million provided by the Recovery Act, $120 million is designated for
the design and construction of a new enterprise data center in the western part of the United
States. The new data center, the Enterprise Server Operations Center (ESOC) West, will be
established within the Western United States and is an integral component of the Department’s
existing Data Center Consolidation plan. The Data Center Consolidation plan focuses on three
aspects of consolidation: consolidating domestic data centers; consolidating servers; and


                                                 2

                                        UNCLASSIFIED
                                        UNCLASSIFIED


consolidating data center services leading to improved systems availability, scalability, security,
and cost efficiency.

        As of May 2011, multiple data centers were located throughout the Washington, D.C.,
metropolitan region, resulting in a network of systems and servers that operates inefficiently.
The Department’s systems have experienced significant growth over the past several years, and
the current infrastructure and framework will not be able to sustain future needs. The overall
goal of the Data Center Consolidation plan is to consolidate all of the data centers within two
geographically dispersed ESOCs in order to increase efficiency, reduce the Department’s data
security risk, ensure continuity of operations, and provide for future IT growth. The two ESOCs
are the proposed ESOC-West, which will be a Government-owned facility, and the recently
established ESOC-East (located in Virginia). ESOC-East became fully operational in July 2009
and is a leased facility located within a mixed-use Government and commercial compound. The
consolidation of servers focuses on eliminating duplicative servers or combining multiple servers
onto single larger servers through a process called “virtualization.” This process involves
partitioning a single physical server into smaller “virtual” servers, thereby enabling multiple
applications to run on the same computer. Many of the Department’s current servers were
purchased for the purpose of running a single application, resulting in wasted server capacity.
Combining, or virtualization, of servers recovers this otherwise unused capacity, which also
reduces both capital and operating costs.

       Additionally, consolidation of data centers offers an opportunity to improve data center
services to customers and reduce costs through economies of scale by consolidating activities
such as backup, monitoring, and data storage once bureaus are housed within the ESOC.

       The construction of the ESOC-West will be accomplished through an MOU between the
Department and GSA. The agreement includes providing GSA with funding authority of
$79,362,805 through a Reimbursable Work Authorization. GSA is responsible for overseeing
construction of the data center as well as for managing, awarding, and reporting on construction
contracts. GSA will incur all costs related to the Reimbursable Work Authorization and will
invoice the Department on a monthly basis. Construction is scheduled for completion in
September 2011, with subsequent transitioning of systems planned for May 2012. The ESOC-
West is projected to open and to be fully operational in June 2012.

                                            Objective

       The objective of our audit was to determine whether the Department adequately
implemented Data Center program plans, achieved stated program outcomes, and complied with
the reporting requirements of the Recovery Act.

                                       Results of Audit
        The Department has made progress in accomplishing Data Center program objectives,
plans, and milestones. The success of the Data Center program was the result of collaboration
between several Department bureaus and other Department personnel and contractor staff. We
found that the Data Center program as part of the Department’s Data Center Consolidation plan

                                                 3

                                        UNCLASSIFIED
                                       UNCLASSIFIED


was thorough and well thought out. We found no deviations or major delays in execution of the
plan.

        As of September 30, 2010, almost 100 percent of the $120 million in program funds
designated for the Data Center program had been obligated. Overall, IRM program managers
have complied with OMB management and financial oversight requirements. Also, funds were
awarded and distributed in a prompt, fair, and reasonable manner. However, we noted several
areas in which Recovery Act procedures were not followed and contract data was not reported
accurately.

Finding A. Program Objective Is Generally Being Achieved

        Based on our evaluation of project management, review of supporting documents, and
tests for propriety of contract obligation and expenditure transactions, we determined that the
Data Center program is on time and on budget and that Recovery Act funds were used
appropriately and spent according to approved plans. The project experienced no significant
delays or major obstacles. As of May 2011, 100 percent of the design of the ESOC-West had
been completed, and construction was underway. Department and contractor ESOC teams are in
the planning stages of transition and decommissioning and are in the process of completing 100
percent of the Department’s transition plans for migrating systems upon completion of the
ESOC-West. Other than the procurement of IT equipment, most of the expenditures will result
from actual construction costs of the ESOC-West and the transitioning of systems after
construction is complete. Initial work has started related to implementation of infrastructure and
hardware as well as for preliminary software testing at the Beltsville Maryland Information
Management Center in support of the Department’s plan for repurposing the Beltsville Center to
meet its future test and development systems requirements.

        The Data Center program did not experience any significant delays or funding issues
specific to those activities that were funded by the Recovery Act. The activities funded by the
Recovery Act under the Data Center program do not represent complete and discrete projects.
Rather, these efforts relate to the Department’s existing and ongoing Data Center Consolidation
plan, which is part of its IT Strategic Plan. The Recovery Act provided necessary funding to
supplement and assist in accomplishing key activities that were already planned and included
within the Department’s long-term plans. To fully complete the Data Center Consolidation plan,
additional objectives (those that were not included within the Recovery Act program plans),
funding, and resources will be required in FY 2011 and beyond.

       As of September 30, 2010, almost 100 percent, or $119,972,941, of the $120 million
designated for the Data Center Program had been obligated. Funds obligated for contracts and
the Reimbursable Work Authorization with GSA represented 99.6 percent of all Data Center
program obligations. The remaining funds represent costs related to travel, airfare, and
surcharges on contracts awarded under the Bureau of Administration, Office of Acquisitions
Management. Data Center Program obligations and expenditures as of September 30, 2010, as
shown in Table 2.




                                                4

                                       UNCLASSIFIED
                                       UNCLASSIFIED


Table 2. Data Center Program Obligations and Expenditures
    Data Center Program Funds as of 9-30-2010              Obligations            Expenditures
Reimbursable Work Authorization – GSA                          $79,362,805             $4,606,391
Contracts / Awards to Vendors                                   40,133,531             31,287,717
Other – Travel, Bureau of Administration, Office of                476,605                475,066
Acquisition Management surcharges, and misc.
                                            TOTAL             $119,972,941             $36,369,174
Source: Department of State.

        In addition to the construction of the ESOC-West, the Recovery Act will fund activities
to assist Department personnel with the IT integration component of the Department’s existing
Data Center Consolidation plan. This assistance consists of drafting plans for migrating existing
IT systems to ESOCs East and West, initially implementing those plans, and repurposing and
decommissioning existing data centers. Specifically, the Data Center program used Recovery
Act funds for the following purposes:

      Designing and constructing the ESOC-West.
      Procuring hardware, software, and other IT equipment to be housed within ESOC-West
       or needed for the IT integration component.
    	 Providing funding to supplement existing Department efforts and using contractors to
       assist with the decommissioning of old data centers, repurposing the Beltsville
       Information Management Center to house the Department’s development systems, and
       complying with Recovery Act reporting requirements.

       In addition to the $79,362,805 for the Reimbursable Work Authorization with GSA,
major contracts awarded to assist the Department with the cited objectives are summarized in
Table 3.

Table 3. Data Center Program Major Contracts
                                         Awarded as
        Vendor                 Award                                    Labor Services
                                          of 9-30-10
Einhorn Yaffee &                                      Provide architectural design and engineering
Prescott (EYP)         SAQMMA09F1591      $ 3,114,215 services.
Gartner Group          SAQMMA09L1471      $ 1,325,524 Provide technical and programmatic expertise in
                                                      delivery of a range of services–mainly program
                                                      management and assistance in complying with
                                                      Recovery Act requirements. This expertise also
                                                      includes sourcing strategy, transition planning,
                                                      price and performance benchmarking, and
                                                      optimizing processes.
Intercom Federal       SAQMMA09F3829      $ 7,655,088 Provide, in collaboration with the Department’s
Systems Corp.                                         ESOC team, transition services for planning and
                                                      migrating existing ESOC systems and customers
                                                      to the Department’s new data centers ESOC West
                                                      and East, and assist in repurposing the Beltsville
                                                      Information Management Center to support the
                                                      Department’s development requirements.
Source: Department of State.

                                                5

                                       UNCLASSIFIED
                                        UNCLASSIFIED



Finding B. Program Is Generally in Compliance With Recovery Act
Requirements
        IRM program managers adequately planned for and managed funds provided for the Data
Center program. Recovery Act funds were used for their intended purposes, and overall, the
Department complied with OMB requirements. We found that funds were awarded and
distributed in a prompt, fair, and reasonable manner and that contractors and other fund
recipients met eligibility requirements and complied with award requirements. For example,
fixed-price contracts were made to American companies for hardware, software, and circuits in
support of American high-technology companies. As required by the Recovery Act, separate
Treasury Account Symbols were established for the Data Center program. As reported through
the Department’s Capital Investment Fund, we verified that program funds had proper approvals
and that the monitoring of subprojects and contracts was adequate, as shown in Appendix C,
“Capital Investment Fund.” We noted, however, some minor instances in which Recovery Act
procedures were not followed and contract data was not reported accurately.

Notifications on the Federal Business Opportunities Web Site

        For the 15 contracts reviewed, we found that the majority of the notifications on the Web
site FedBizOpps.gov did not provide adequate transparency or a clear understanding to the
general public of the purpose, nature, and corresponding program of the procurements. The
Department has publicized both its program plans and its contracts awarded with Recovery Act
funds. However, nine award notifications did not reference specific program plans or objectives,
making it difficult to determine which awards were made with respect to the Department’s
Recovery Act programs. In addition, 11 award notifications did not include descriptions of the
products or services that could be readily understood by the general public.

          In that regard, OMB Memorandum M-09-153 states:

          Agencies should ensure that their descriptions of procurements use language
          appropriate for a more general audience, avoiding industry-specific terms and
          acronyms without plain language explanations. Taxpayers, media, and others are
          using our business systems to gain insight on how Recovery Act funds are being
          spent.

        Transparency and accountability of Recovery Act funds are major requirements of the
act. However, almost all program funds have been obligated. Therefore, we are not making any
recommendations for IRM’s Enterprise Network Management Division to take actions to
improve transparency for future procurement notifications reported through FedBizOpps.gov.
Nevertheless, this deficiency prevented the general public from having the ability to identify
procurements made pursuant to the Cyber Attacks program, since descriptions within award
notifications did not contain references or mention corresponding programs.



3
    OMB Memorandum M-09-15, pt. 6.2.

                                                6

                                        UNCLASSIFIED
                                             UNCLASSIFIED



Recipient-Reported Data on Award Information

        For the quarterly reporting period ended June 30, 2010, we identified one award in which
recipient-reported data did not agree with source documentation. Specifically, the recipient was
reporting under the incorrect award number. The award was a $55,784 delivery order against an
existing National Aeronautics and Space Administration (NASA) Solutions for Enterprise-Wide
Procurement (SEWP) contract4 that was invoiced and completed in May 2010. For the reporting
period ended June 30, 2010, the award activity was not publicized because the vendor reported
the information under the NASA SEWP contract number and not under the Department’s
delivery order number.

        The FAR5 establishes reporting requirements for contractors receiving awards that were
funded by the Recovery Act. The information to be reported includes cumulative amounts
awarded, cumulative amounts spent, descriptions of goods and services, assessment of contractor
progress toward completion, and any subcontracting activity. Contractors receiving awards
under the Recovery Act are required to report on award information and activities on a quarterly
basis using the online reporting tool FederalReporting.gov. This information is then uploaded
from FederalReporting.gov to Recovery.gov for publicizing to the general public. Department
personnel are required to review recipient-reported information every quarter to ensure
consistency with Department records. However, as noted, recipient-reported data for the Data
Center program showed an underreporting of $55,784.

          Recommendation 1. We recommend that the Bureau of Administration’s Office of
          Logistics Management, Office of Acquisitions Management (AQM), ensure, through
          more effective oversight of the quarterly review of recipient-reported data, that
          contractors that receive awards from the American Recovery and Reinvestment Act for
          the Data Center program provide accurate award information and that the inaccurate
          award information identified in this report is corrected.

          Management Response: AQM concurred with the recommendation, stating that the
          bureau will research reported inaccuracies and provide OIG with an action plan to resolve
          any discrepancies.

          OIG Analysis: On the basis of the response, OIG considers the recommendation
          resolved. OIG will consider the recommendation closed pending review and acceptance
          of AQM’s action plan.

Instances of Noncompliance With Certain Office of Management and Budget
Requirements

       Management and oversight of OMB requirements for contracts supporting the Cyber
Attacks program were generally accomplished. However, we identified instances of agency
noncompliance with OMB Memorandum M-09-15 concerning performance requirements by


4
    NASA SEWP is a Government-wide acquisition contract vehicle for IT products and services
5
    FAR 52-204-11, “American Recovery and Reinvestment Act – Reporting Requirements.” (March 2009)

                                                      7

                                             UNCLASSIFIED
                                             UNCLASSIFIED


agencies in awarding contracts to contractors were identified. Specifically, for the 15 contracts
reviewed, we noted the following instances of noncompliance:

        	 The clause in the FAR (part 52.204-11)6 that specifies recipient reporting
           requirements was not included in the award documents for one award.
        	 Pre-solicitation and award notifications were not published on FedBizOpps.gov for
           two awards. According to the FAR,7 agencies should publish both pre-solicitation
           and award notifications on FedBizOpps for the procurement of all goods and services
           using Recovery Act funds.
        	 On the Federal Procurement Data System (FPDS.gov) Web site, one award was not
           identified as a Recovery Act initiative. According to the FAR,8 in addition to
           publicizing contract and award actions within FPDS.gov, agencies should label all
           awards that are Recovery Act related.

        Since almost all program funds have been obligated and the noncompliance instances
cited are primarily isolated, we are not making any recommendations in this area.




6
  Ibid. 

7
  FAR 5.704, “Publicizing Pre-award,” and FAR 5.705, “Publicizing Post-award.” 

8
  FAR 4.605, “Contract Reporting - Procedures.”


                                                       8

                                             UNCLASSIFIED
                                       UNCLASSIFIED



                                                                                     Appendix A

                                 Scope and Methodology
       The Department of State (Department), Office of Inspector General (OIG), contracted
with Clarke Leiper, PLLC, independent public accountant, to audit the Department’s Data Center
program.

        The purpose of this audit was to evaluate the Data Center program and assess the
Department’s planning and incorporation of Recovery and Reinvestment Act funds to meet
program objectives, to ensure that Recovery Act funds were used for their intended purpose, and
to determine whether the Department complied with Office of Management and Budget (OMB)
requirements. To ensure the adequacy of the program plans and to ensure that the Department
will use Recovery Act funds appropriately, we performed audit procedures to determine whether

      Funds were awarded and distributed in a prompt, fair, and reasonable manner.
      Recipients and uses of all funds were transparent to the public and the public benefits of
       the funds were reported clearly, accurately, and in a timely manner.
      Risks associated with the project receiving Recovery Act funding have been identified
       and communicated to the Department.
      Funds were used for authorized purposes.
      The program has taken action to identify and mitigate instances of fraud, waste, error,
       and abuse.
      Established schedules were monitored and delays were properly justified.
      Cost overruns and unnecessary delays were avoided and lessons learned were identified
       to prevent recurrences.
      Program goals were achieved and specific program outcomes were realized.
      Contractors and other fund recipients met eligibility requirements and complied with
       award requirements.
      Adequate planning was conducted for potential future project phases.

        We conducted the audit work from April through October 2010. This work was
conducted in accordance with generally accepted government auditing standards. Those
standards require that the auditor plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We and OIG believe that the evidence obtained provides a reasonable basis for the
findings and conclusions based on the audit objectives.

        In our audit of the Department’s Data Center program, we interviewed project managers
at the Bureau of Information Resource Management (IRM) and evaluated documentation
supporting planned activities and milestones, risk assessments, and other relevant documents in
support of major accomplishments or decisions. For compliance with Recovery Act
requirements, we reviewed contract files, award documentation, and information published on
the Web sites Recovery.gov, FPDS.gov, and FBO.gov. In determining the proper use of
Recovery Act funds, we tested sampled transactions and reviewed related source documents,
including purchase orders, contracts, vendor invoices, and payment and approval vouchers.

                                                9

                                       UNCLASSIFIED
                                       UNCLASSIFIED




        In the draft report, we addressed the report’s one recommendation to IRM. However,
IRM officials suggested that the Bureau of Administration, Office of Logistics Management,
Office of Acquisitions Management (A/LM/AQM), would be the more appropriate office to take
action on this recommendation. Therefore, we redirected the recommendation in this final
report to AQM, whose response in presented in Appendix C.

Work Related to Internal Controls

        To assess the adequacy of internal controls related to the weekly activity reports, the
accountability of Recovery Act funds, and the monitoring of projects to avoid cost overruns and
delays, we performed the following actions:

       Obtained an understanding of the processes and procedures.
       Reviewed source documentation and other types of evidence in order to confirm the
        adequacy of stated controls.
       Compared weekly report balances with details and reconciled differences in the Global
        Financial Management System (GFMS).
       Reviewed internal reports related to the compilation of balances and amounts for
        reporting to the public.
       Compared reported progress with information in the planning documents and progress
        schedules.
       Determined that separate Treasury Account Symbols were established for Recovery Act
        programs.
       Verified proper approval over transactions involving Recovery Act funds.
       Discussed, with program managers, issues regarding cost overruns and delays and
        subsequently compared responses with expenditure details and program schedules to
        assess the reasonableness of responses.

Data Reliability

         We selected a sample and performed the following procedures in assessing data
reliability and quality:

   	 Reviewed contract files to determine whether contracts were competitively awarded and
      at fixed cost.
   	 Tested, if a contract was determined to have been awarded noncompetitively or at a non-
      fixed cost, whether those contracts were disclosed and listed within a separate section on
      Recovery.gov.
   	 Reviewed, for each contract, corresponding notifications and award information
      published on FedBizOpps and FPDS.gov to determine whether all required Recovery Act
      disclosures and identifying information were reported.
   	 Reviewed, for each contract, the vendors’ reported data from Recovery.gov to ensure that
      all required information was included. We also compared vendor-reported amounts with
      those within GFMS.


                                              10

                                       UNCLASSIFIED
                                      UNCLASSIFIED



   	 Compared weekly financial report balances with information on underlying schedules
      and GFMS details.

Work Related to the General Services Administration

     To test compliance with the Department’s memorandum of understanding (MOU) with
   GSA and to verify Data Center program progress, we performed the following procedures:

     Reviewed the MOU and inspected the document for appropriate approvals.
     Reviewed all funding documents under the Reimbursable Work Authorization and traced
      dollar amounts to the Department’s financial system.
   	 Reviewed the results of testing major contracts awarded under the Reimbursable Work
      Authorization from GSA’s OIG to determine that the contracts were appropriately
      awarded under the Recovery Act.
   	 Compared GSA’s Reimbursable Work Authorization budgeting and monitoring
      schedules with information on vendor invoices.
    Reviewed sampled monthly billings from GSA and reviewed supporting vendor invoices.
    Recalculated the overhead and administrative fees invoiced to the Department to ensure
      that they were consistent with the percentages stated within the MOU.
    Reviewed Data Center program planning documents to support and justify the decision to
      use GSA services and to locate within the Western United States Federal Center.

Use of Computer-Processed Data

       We used computer-processed data from GFMS to select sample items for testing
contracts and obligation and/or expenditure transactions. We also used GFMS details and
reconciling schedules to compare the accuracy of balances reported within the Recovery Act
weekly financial reports posted by the Department. We determined that the GFMS data and
schedules were reliable based on our selected sample and our testing of internal controls
involving the weekly reporting process.




                                              11

                                      UNCLASSIFIED
                                            UNCLASSIFIED



                                                                                  Appendix B

                                   Capital Investment Fund
    Funding from the Recovery and Reinvestment Act (Recovery Act) for the Department of
State (Department) is allocated between four separate Treasury Account Symbols (TAS), or
funds. These funds were created to comply with the Recovery Act requirement of tracking and
accounting for Recovery Act funds separately from other agency funds. All TASs and related
activities are included within the Department’s weekly financial reports. The Department
obligated nearly 100 percent of the available amount for the Data Center program.

    The Department’s Capital Investment Fund (TAS 1119) is broken down into three sections–
the Data Center, Cyber Security, and IT Platform initiatives, as shown in Table 1. The Data
Center program is tracked and recorded under the Data Center portion of the fund (TAS
1119.0001).

Table 1. Capital Investment Fund
Department of State – Capital Investment Fund                      Planned          Actual
(TAS 1119)                                            Fund Code    Budgeted       Obligations
   - Data Center                                      1119.0001    120,000,000     119,972,941
   - Cyber Security                                   1119.0002     98,500,000      98,502,834
   - IT Platform                                      1119.0003     33,500,000      33,499,148
Transfer to U.S. Agency for International
Development (USAID)                                        -        38,000,000      38,000,000
                                              TOTAL               $ 290,000,000   $ 289,974,923
Source: Department of State.




                                                 12

                                            UNCLASSIFIED
                               UNCLASSIFIED



                                                                                   Appendix C




                                               United States Department of State
                                               Washington , D.C 20520

                                               July 19,2011

UNCLASSIFIED
MEMORANDUM

TO:         OIG/AUD -lIJark Taylor

FROM:       Cathy Rea~»MlAQM

SUBJECT: Draft    Report~ ~Audit
                              of the Department of State Data Center
         Program Funded by the American Recovery and Reinvestment Act

Recommendation 1: We recommend that the Bureau of Information Resource
Management, Enterprise Network Management Division, ensure, through more
effective oversight ofthe quarterly review of recipient-reported data, that
contractors that receive awards from the American Recovery and Reinvestment
Act for the Data Center program provide accurate award information and that the
inaccurate award information identified in this report is corrected.

AlLMlAQM response :

NLMlAQM will work with the OIG regarding the identified contracts/task orders
and will research each reported inaccuracy. Once all procurement-related actions
have been researched and verified, NLMlAQM will provide OIG with an action
plan to resolve any discrepancies.




                                UNCLASSIFIED




                                        13 


                               UNCLASSIFIED
FRAUD, WASTE, ABUSE, OR MISMANAGEMENT
              of Federal programs

         and resources hurts everyone. 


        Call the Office of Inspector General 

                     HOTLINE 

                    202-647-3320 

                 or 1-800-409-9926 

          or e-mail oighotline@state.gov 

       to report illegal or wasteful activities.

               You may also write to
            Office of Inspector General
             U.S. Department of State
               Post Office Box 9778
               Arlington, VA 22219
            Please visit our Web site at:
                http://oig.state.gov

         Cables to the Inspector General
        should be slugged “OIG Channel”
            to ensure confidentiality.
